Department   of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




 THE IMPACT OF HIGH-PRICED
       GENERIC DRUGS
 ON MEDICARE AND MEDICAID




                     JUNE GIBBS BROWN
                      Inspector General

                          JULY1998
                        OEI-03-97-00510
                          OFFICE OF INSPECTOR                   GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI’s Philadelpia Regional Ofice prepared this report under the direction of Robert A. Vito,
Regional Inspector General, and Linda M. Ragone, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                                   HEADQUARTERS

Linda M. Ragone, Project Leader                          Lisa A. Foley, Program Specialist
David Graf
Cynthia Hansford




     To obtain copies of this report, pleasecall the Philadelphia Regional Office at l-800-53 l-9562.
             Reports are also available on the World Wide Web at our home page address:
                                     http://www.dhhs.gov/progorg/oei
                   EXECUTIVE                         SUMMARY
PURPOSE

To determine the impact of high-priced generic drugs on the Medicare and Medicaid programs.

BACKGROUND

Both Medicaid and Medicare pay billions of dollars each year for prescription drugs. The
Medicaid program paid nearly $10 billion for prescription drugs in 1995. Although Medicare
provides reimbursement for only certain types of drugs, the Part B program still paid more than
$2.3 billion dollars for prescription drugs in 1996.

On January 1, 1998, Medicare Part B began to reimburse covered drugs at 95 percent of the
average wholesale price (AWP). This change in reimbursement was the result of legislation
enacted by Congress. Previously, Medicare carriers determined the amounts that Medicare paid
for prescription drugs based on the lower of the Estimated Acquisition Cost (EAC) or the national
(AWP). Historically, carriers had used 100 percent of AWP and not estimated acquisition cost to
determine Medicare reimbursement allowances for prescription drugs.

For drugs with generic versions, Medicare carriers determine reimbursement based on 95 percent
of the median AWP for all generic versions of the drug. Prior to January 1998, Medicare
reimbursed drugs with generic versions at 100 percent of the median AWP. Medicare
reimbursement amounts include both the amount that Medicare and its beneficiaries pay a drug
supplier.

In general, State Medicaid agencies use either a discounted AWP or estimated/wholesale
acquisition cost method to reimburse prescription drugs. State Medicaid agencies also receive
manufacturer drug rebates.

This inspection report resulted from a Congressional request concerning high-priced generic
drugs. Using the drugs identified in the request, we collected data from three main sources. To
verify NDC codes and average wholesale prices, we reviewed data from the July 1997Red Book
CD-ROM update. We compiled Medicare statistics from the National Claims History (NCH)
File. We collected drug rebate data from the Medicaid Drug Rebate Initiative (MDRI) System.

FINDINGS

Medicare and its beneficiaries could have saved $5 million to $12 million for four drugs if
I99 7 reimbursement had not been based on higher-priced generic versions.

We found several cases where average wholesale prices for generic products were three to four
times greater than the brand price. For the four drugs reviewed, we determined that the Medicare
program and its beneficiaries could have saved $5 million dollars if 1997 reimbursement had been
based on the average wholesale price of the brand-name products. If reimbursement had been


                                                 1
based on the median of generic drugs with prices less than the brands, Medicare and its
beneficiaries could have saved $12 million for the four drugs.

Florida’s Medicaid program could have saved half a million dollars for just eight drugs in
1996 if higher-priced generic drugs had been reimbursed at brand prices.

Using the current reimbursement formula, Florida Medicaid in some cases paid three times more
for a generic than it did for the brand version of the eight drugs reviewed. After factoring in
manufacturer rebates, the program paid more than five to eight times more for generics than brand
products. If Florida Medicaid had capped reimbursement for higher-priced generic drugs at the
reimbursement level for the highest-priced brand drug, nearly half a million dollars would have
been saved for just eight drugs in 1996.

RECOMMENDATIONS

There is evidence that high-priced generic drugs have a significant financial impact on Medicare
and Medicaid reimbursement. We found that the inclusion of higher-priced generic drugs in
Medicare payment calculations can raise allowances above the price of brand-name drugs. In the
Medicaid program, utilization of higher-priced generic drugs was widespread among the drugs
reviewed.

We believe further reductions need to be made in Medicare and Medicaid reimbursement for
prescription drugs. We continue to support the Health Care Financing Administration’s legislative
proposal to link Medicare reimbursement to the acquisition cost of prescription drugs. However,
until broader legislation is enacted, we believe refinements to the current system are needed.
Since the changes recently enacted by Congress continue to link reimbursement to average
wholesale prices, we believe that mechanisms should be in place to limit the impact that high-
priced generic drugs have on reimbursement. Medicare’s new reimbursement methodology for
prescription drugs will not prevent higher-priced generics from increasing Medicare allowances.
Higher-priced generic drugs will still be included in the median calculation. When the median
generic policy was implemented, generic prices were normally less than those of the brand-name
product. However, what may have originally been a cost-saving mechanism has, for certain
categories of drugs, become a losing proposition.

We believe that the Medicare program should take action to prevent these situations. We
recommend that the Health Care Financing Administration        1) not include higher-priced
generic drugs in the median calculation to determine Medicare allowances, or 2) propose
limiting Medicare allowances to brand prices when higher-priced generic drugs are
involved.

In contrast to the Medicare program which pays for brand and generic drugs at the same rate,
Medicaid reimburses based on the specific drug supplied. Therefore, we recommend that the
Health Care Financing Administration      limit Medicaid reimbursement of higher-priced
generic drugs to the amount reimbursed (prior to rebate) for lower-priced brand or
appropriately-priced    generic drugs.


                                                ii
AGENCY     COMMENTS

The HCFA concurred with our recommendation for the Medicare program. The agency stated
that they will consider these options in regulations implementing provisions of the Balanced
Budget Act of 1997.

Although not addressed in the agency comments, the HCFA did issue a program memorandum in
January 1998 to Medicare contractors instructing that “if the brand name product AWP is lower
than the median of the generic AWP, calculate a new median with the brand AWP included.” We
believe this revision of the reimbursement calculation will reduce some of the impact that high-
priced generic drugs have on Medicare payments.

The HCFA did not concur with our recommendation for the Medicaid program. The agency
agreed that high-priced drugs can have an adverse impact on Medicaid reimbursement but
believed that States are in a better position to assure that lower-priced brand-named drugs are
dispensed before higher-priced generics. The HCFA believes that States already have the
authority to institute programs to ensure appropriate payments for prescription drugs. However,
HCFA will forward the information from this report to the States and will continue to encourage
them to use existing mechanisms to prevent higher-priced generics rather than less costly brand
drugs from being dispensed.

We recognize HCFA’s continued efforts to provide guidance to States in implementing cost-
savings mechanisms for prescription drugs. However, the current authorities provided to the
States did not prevent Medicaid from paying more for generic versions of drugs than they did for
the brand-name product. Therefore, we continue to believe that HCFA should limit Medicaid
reimbursement for higher-priced generic drugs.




                                                ...
                                                111
                         TABLE                            OF CONTENTS 

                                                                                                                  PAGE

EXECUTIVE       SUMMARY                 .................        ..    ......   ......     .
       ...........           i

INTRODUCTION            ........................                ..     ......   ...... 
            ...........           1

FINDINGS..      ............................                           ......   ......          . 
 ...........           6

 l Medicare savings for four drugs ............                        ......   ...... 
            ...........           6

 l Florida Medicaid savings for eight drugs ......                     ......   ...... 
            ...........           7

RECOMMENDATIONS                      ..................                ......   ...... 
            ...........           9

APPENDICES

A: Impact of High-Priced Generic Drugs on Medicare                     ......   ...... 
            .........       A-l

B: Impact of High-Priced Generic Drugs on Medicaid                     ......   ...... 
            .........       B-l

C: Health Care Financing Administration Comments                     . ....       .......
          .........       C-l
                            INTRODUCTION 

PURPOSE

To determine the impact of high-priced generic drugs on the Medicare and Medicaid programs.

BACKGROUND

Both Medicaid and Medicare pay billions of dollars each year for prescription drugs. The
Medicaid program paid nearly $10 billion for prescription drugs in 1995. This $10 billion
represented nearly 10 percent of Medicaid’s total reimbursement budget for all services. Although
Medicare provides reimbursement for only certain types of drugs, the Part B program still paid
more than $2.3 billion dollars for prescription drugs in 1996.

Medicare Drug Reimbursement

While Medicare does not pay for over-the-counter or many self-administered drugs, it does pay
for certain categories of prescription drugs used by Medicare beneficiaries. Under certain
circumstances, Medicare Part B covers drugs that are used with durable medical equipment or
infusion equipment. Medicare will cover certain drugs used in association with dialysis or organ
transplantation. Drugs used for chemotherapy and pain management in cancer treatments are also
covered. The program also covers certain types of vaccines such as those for flu and hepatitis B.

On January 1, 1998, Medicare Part B began to reimburse covered drugs at 95 percent of the
average wholesale price (AWP). This change in reimbursement was the result of legislation
enacted by Congress. Previously, Medicare carriers determined the amounts that Medicare paid
for prescription drugs based on the lower of the Estimated Acquisition Cost (EAC) or the national
(AWP). The AWP is reported in the Red Book and other pricing publications and databases used
by the pharmaceutical industry. The AWPs are mainly provided to these sources by
pharmaceutical manufacturers. Historically, carriers had used 100 percent of AWP and not
estimated acquisition cost to determine Medicare reimbursement allowances for prescription
drugs. Allowances include both the amount that Medicare and its beneficiaries pay a drug
supplier.

For drugs with generic versions, Medicare carriers determine reimbursement based on 95 percent
of the median AWP for all generic versions of the drug. If a brand-name product is priced lower
than the median calculated, a new median including the brand AWP must be calculated. Prior to
January 1998, Medicare reimbursed drugs with generic versions at 100 percent of the median
AWP.

Drugs are currently billed to the Medicare program based on codes developed by the Health Care
Financing Administration (HCFA). These codes are developed as part of the HCFA Common
Procedure Coding System (HCPCS). The codes define the type of drug and, in most cases, a
dosage amount. The codes do not indicate whether a brand or generic version of the drug was



                                                1

administered; nor do the codes provide information on the manufacturer or distributor of the drug
provided.

Medicaid Drug Reimbursement

Prescription drug coverage under the Medicaid program is an optional benefit. Each State
program can choose whether to provide recipients with prescription drug coverage. At the
present time, all 50 States and the District of Columbia have chosen to provide a prescription
drug benefit.

Each State Medicaid agency has the authority to develop its own reimbursement mechanism for
prescription drugs subject to upper payment limits established by HCFA. For the most part, State
Medicaid agencies use either a discounted AWP or estimated/wholesale acquisition cost method
to reimburse prescription drugs.

Unlike Medicare, most drug suppliers bill Medicaid for reimbursement using a national drug code
(NDC). These NDCs identify the manufacturer or distributor of the drug, the product dosage
form, and the package size. From the NDCs, the drug can be identified as a brand or generic
version. Each drug manufactured or distributed for sale in the United States has its own unique
NDC code.

State Medicaid agencies also receive manufacturer drug rebates according to Federal law (Section
 1927 of the Social Security Act). With the enactment of the Omnibus Budget Reconciliation Act
of 1990 (OBRA 90) pharmaceutical manufacturers are required to have rebate agreements with
the Medicaid program for drugs dispensed to recipients. Manufacturers are required to have
these rebate agreements in order to be eligible for Medicaid reimbursement of their drug products.


The quarterly rebate for brand-name drugs is currently based on the greater of 15.1 percent of
Average Manufacturer Price (AMP) or the difference between the AMP and the Best Price. The
AMP is the average price paid by wholesalers for products distributed to the retail class or trade.
Best Price is the lowest price available from the manufacturer to any purchaser (other than those
excluded by law). For generic drugs, the quarterly rebate amount is 11 percent of AMP.

METHODOLOGY

This inspection report resulted from a Congressional request concerning high-priced generic
drugs. The request identified a number of high-priced generic drugs and provided information on
current reimbursement for drugs by the Florida Medicare carrier and Florida Medicaid agency.
Our data collection was conducted and the draft inspection report was issued in 1997 prior to the
change in prescription drug reimbursement that was implemented in January 1998.

Using the drugs identified in the Congressional request, we collected data from three main
sources. To verify the NDC codes and average wholesale prices, we reviewed data from the July
1997 Red Book CD-ROM update. For information on Medicare allowances for prescription


                                                 2

drugs, we compiled statistics from HCFA’s National Claims History (NCH) File. We collected
drug rebate data from HCFA’s Medicaid Drug Rebate Initiative (MDRI) System.

We verified reimbursement amounts with both the Florida Medicaid agency and the Florida
Medicare carrier. We selected Florida because it was the State identified in the Congressional
request. We verified Medicaid rebate amounts with HCFA Central Offke staff.

Medicare Savings

For the five Medicare drugs identified in the request, we compiled NDC codes and average
wholesale prices for all brand and generic drugs that matched the HCPCS code’s description and
dosage. We collected this information from the July 1997 Red Book update. We determined
whether a drug was a brand or generic formula based on the data provided in the Red Book. For
one of the drugs identified (Code J9 190 - Fluorouracil, 500 mg), we could not find a brand-name
version of the drug that met the HCPCS description. The NDC code provided was identified in
the Red Book as a generic drug. Therefore this drug was not included in our savings calculation.
The NDC codes and prices for the remaining four drug codes are detailed in Appendix A.

We determined possible savings to the Medicare program if higher-priced generic drugs were
excluded from reimbursement calculations using two different methods. For both methods, we
calculated prices based on the unit dose defined by the HCPCS code. We also used the Medicare
allowances calculated by the Florida Medicare carrier in January 1997 for both methods. Since
the 1997 utilization data contained in the NCH file was incomplete at the time our review, we
employed utilization data from 1996 for both savings calculations.

For the first method, we determined the possible Medicare savings if the brand drug price was
utilized for reimbursement rather than the median of generic prices. We calculated the difference
between the Medicare allowance and the highest-priced brand-name drug. Using data extracted
from the NCH file, we identified the utilization for each drug code. To calculate savings, we
multiplied the Medicare units reimbursed by the difference between the Medicare allowance and
the highest-priced brand product. We chose to use the high-priced brand since it would provide a
more conservative savings estimate. In cases where brand prices varied, using the lower-priced
brand would have resulted in even greater savings.

For the second method, we determined the potential savings if reimbursement was based only on
the median of generics with prices lower than the highest-priced brand product. We compiled all
of the generic prices available in the Red Book for each drug code. We excluded generic drugs
with prices greater than the highest brand price. We then determined the median statistic for the
remaining prices. The difference between the current Medicare allowance and the recalculated
median allowance was then applied to Medicare utilization to determine the potential savings.

To determine if there were other Medicare-reimbursed drugs with generic versions priced higher
than the brand products, we reviewed average wholesale prices for Medicare HCPCS codes with
greater than $20 million in 1996 expenditures. There were 22 codes with over $20 million in
expenditures. Thirteen of the 22 codes were brand or multiple brand products. Two were “not-


                                                 3

otherwise-classified” codes where the specific drug provided cannot be identified. One code was
for a drug where a common dosage among products is difficult to determine. Another code was
for general IV infusion. Of the five remaining codes, one was already in our review. For the
remaining four codes, we did not find evidence that higher-priced generics had over-inflated the
Medicare allowance. However, we did find that some generics for one of the drug codes had
prices higher than the brand products. Due to the large number of generic products under this
code, these high generic prices did not greatly skew the median statistic.

Medicaid Savings

For the ten Medicaid drug examples identified in the request, we compiled NDC codes and
average wholesale prices for all brand and generic drugs that met the described dosages. We
collected this information from the July 1997 Red Book update. We determined whether a
specific drug was a brand or generic version based on information provided in the Red Book.

We used the NDC codes to extract information from the MDRI system. This system provides
Medicaid utilization, reimbursement, and rebate information for prescription drugs. To be
consistent with the data provided in the request, we extracted information on Medicaid
prescription drugs for the State of Florida. For the NDCs identified, we collected information for
all four quarters of 1996. We could not find any Florida Medicaid utilization for one of the ten
drugs identified. For a second drug, we found only brand use in one quarter of 1996. Therefore,
potential savings calculations were performed on only eight of the ten drugs identified.

The reimbursement data provided in the MDRI system includes both actual drug payments and
dispensing fees. For every prescription billed to Medicaid, the program will pay an established fee
to the supplier for dispensing the medication. To compare actual drug payments for brands versus
generics, we needed to remove the dispensing fee payments from the reimbursement figures for
each NDC code.

The MDRI system provides utilization data in two formats -- number of prescriptions and number
of drug units reimbursed. We used both of these formats for our calculations.

We performed a series of calculations to determine the unit reimbursement for each NDC code.
The steps are outlined below.

 Step 1. 	     We determined the dollars associated with dispensing fees by multiplying the
               number of prescriptions reimbursed with Florida’s current dispensing fee.

 Step 2. 	     The reimbursement for dispensing fees was subtracted from the total
               reimbursement amount for the code.

 Step 3. 	     The drug reimbursement calculated in Step 2 was then divided by the units of drug
               reimbursed to determine the unit reimbursement for each NDC code.




                                                 4

To evaluate the impact of Medicaid rebates on the payments for brand and generic drugs, we
extracted the rebate amount per unit for each NDC code and multiplied this by the number of
units Florida Medicaid reimbursed. This total rebate amount was then subtracted from the total
drug payments determined in Step 2 above. The resulting reimbursement was divided by the
number of units reimbursed to determine the unit reimbursement after rebate for each NDC code.
The unit reimbursement amounts both before and after rebates for each NDC code are provided in
Appendix B.

We determined what the potential savings to Florida Medicaid could have been if reimbursement
for higher-priced generic drugs was capped at the reimbursement level of the highest-priced brand
product. For each generic NDC code that was reimbursed at a higher rate per unit than the brand,
we calculated savings by determining the difference between actual reimbursement for the generic
drug and the amount that would have been paid if reimbursement had been based on the brand
drug payment. This difference provided the savings estimate for each NDC code. We aggregated
the savings for each code to determine an overall savings for that particular drug.




                                                5

                                     FINDINGS 

MEDICARE AND ITS BENEFICIARIES   COULD HAVE SAVED $5 MILLION TO $12
MILLION  FOR FOUR DRUGS IF 1997 REIMBURSEMENT  HAD NOT BEEN BASED
ON HIGHER-PRICED  GENERIC VERSIONS.

All four drug codes reviewed had at least two generic versions available in 1997. As one might
expect, some of the generic versions identified had average wholesale prices lower than the brand
price. However, these drug codes also had between one and four generic versions with published
prices higher than brand prices. In several cases, prices for generic products were three to four
times greater than the brand price. Actual unit prices for all codes are provided in Appendix A.

We calculated that the Medicare program and its beneficiaries could have saved $5 million dollars
if 1997 reimbursement had been based on the brand prices of the four drugs. Medicare now bases
payment for these drugs on the median of generic wholesale prices. Because of the higher-priced
generics, the Medicare contractor in Florida determined allowance amounts for these drugs that
were higher than the brand prices. The savings calculation is detailed in the table below.


                          1997 Medicare Savings Based on Brand Price
  HCPCS            Generic        Highest       Florida         Medicare           Potential
   Code             Dr%            Brand      Medicare           Units             Savings
                    Name           AWP        Allowance
 53370          Vancomycin           $8.28            $12.91        876,506          $4,058,223
 59182          Etoposide          $136.49           $141.97        202,106          $1,107,541
 51840          Kanamycin            $3.36             $6.69           1,270              $4,229
                Sulfate
 51160          Digoxin              $2.43             $2.53           2,061                   $206
 TOTAL      I                                                                        %5,170,199


We calculated that Medicare and its beneficiaries could have saved $12 million if reimbursement
had been based on the median of generic drugs with prices less than brand prices. Allowance
amounts for three drugs would have decreased by more than half if the median computation used
to determine Medicare’s allowance was based only on lower-priced generics. The fourth drug’s
Medicare allowance would have decreased by 23 percent. The table on the next page details
these savings calculations.




                                                6

L        1997 Medicare Savings Based on Median of Lower-Priced                  Generics
  HCPCS          Dwz            Recalculated           Florida    Medicare          Potential
   Code          Name            Allowance           Medicare      Units            Savings
                                                     Allowance
 53370        Vancomycin                 $6.38           $12.91      876,506          $5,723,584
 59182       Etoposide                $110.00          $141.97       202,106          $6,461,329
 51840       Kanamycin                   $2.25            $6.69        1,270              $5,639
             Sulfate
 51160        Digoxin                    $1.04            $2.53        2,061              $3,071
 TOTAL                                                                              $12,193,623

Higher-priced generic drugs will continue to impact Medicare despite the recent 5percent
reduction in drug reimbursement.

As of January 1998, Medicare determines drug allowances based on 95 percent of a drug’s
average wholesale price. For drugs with both brand and generic versions, Medicare will
determine allowances by calculating the median average wholesale price of the generic versions
and then reducing it by 5 percent. If a brand-name product is priced lower than the median
calculated, a new median including the brand AWP must be calculated. However, this method of
calculating allowances can still allow higher-priced generics to raise Medicare allowances.

For the drugs we reviewed, the 5 percent decrease will not offset the impact that high-priced
generics have on Medicare allowances. Extremely high-priced generics can cause Medicare
allowance rates to be higher than brand prices. In the case of kanamycin sulfate (J1840), the
Medicare allowance rate was almost double the price of the brand product.

FLORIDA’S MEDICAID PROGRAM COULD HAVE SAVED HALF A MILLION
DOLLARS FOR JUST EIGHT DRUGS IN 1996 IF HIGHER-PRICED GENERIC
DRUGS HAD BEEN REIMBURSED  AT BRAND PRICES.

Unlike the Medicare program, Medicaid can reimburse each brand and generic version of a drug
at a different level. Many States use some form of discounted average wholesale price as a basis
for reimbursement. The Florida Medicaid program based 1996 reimbursement on the wholesaler
acquisition cost plus seven percent.

Using the current reimbursement formula, Florida Medicaid in some cases paid three times more
for a generic than it did for the brand version of the eight drugs reviewed. After factoring in
manufacturer rebates, the program paid more than five to eight times more for generics than brand
products.




                                                 7
If Florida Medicaid had capped reimbursement for higher-priced generic drugs at the
reimbursement level for the highest-priced brand drug, nearly half a million dollars would have
been saved for just eight drugs in 1996. Florida’s drug reimbursement accounts for about 5
percent of the Medicaid program’s national reimbursement for drugs. If the savings developed for
Florida were extended to other States, the Medicaid program as a whole could have saved $10
million in 1996 reimbursement for just these eight drugs. The table below details the Florida
Medicaid savings calculations for each of the eight drugs. Since Medicaid costs are shared by
both Federal and State governments, these estimates include both Federal and State savings.


                1996Medicaid Savings Based on Brand Reimbursement 

     Generic Drug Name             Dosage              Savings            Savings with Rebates 





  Clindamycin    Phosphate              4 ml                     $3,608                    $4,617
  TOTAL                                                     $409,257                    $584,917


As shown in the table, savings increase when Medicaid rebate amounts are factored into drug
payments. Medicaid receives rebates of 11 percent for generic drugs but 15 percent or more for
brand drugs. So a higher-priced generic will often provide less of a rebate to the program than a
lower-priced brand product. If one considers the after-rebate impact, the reimbursement
differences between the brand and higher-priced generic drugs become even more significant.
Appendix B provides a comparison of Florida’s unit reimbursement before and after rebate for
both the brand and generic versions of the eight drugs reviewed.

Since Medicaid reimburses based on the specific NDC code, higher-priced generics only become
an issue if they are the particular drugs billed to the program. For the eight drugs reviewed, these
higher-priced generics represented a significant portion of generic billing. Higher-priced generics
accounted for 46 to 100 percent of all generics billed for the eight drugs.




                                                 8

                      RECOMMENDATIONS
There is evidence that high-priced generic drugs have a significant financial impact on Medicare 

and Medicaid reimbursement. We found that the inclusion of higher-priced generic drugs in 

Medicare payment calculations can raise allowances above the price of brand-name drugs. In the 

Medicaid program, utilization of higher-priced generic drugs was widespread among the drugs 

reviewed. 


As a result of recent Congressional action, Medicare reimbursement for prescription drug codes 

will be set at 95 percent of the published average wholesale price beginning in 1998. For drugs 

with generic versions, Medicare will reimburse 95 percent of the median price of all generic drugs. 


We believe further reductions need to be made in Medicare and Medicaid reimbursement for 

prescription drugs. We continue to support the Health Care Financing Administration’s legislative 

proposal to link Medicare reimbursement to the acquisition cost of prescription drugs. However, 

until broader legislation is enacted, we believe refinements to the current system are needed. 

Since the changes recently enacted by Congress continue to link reimbursement to average 

wholesale prices, we believe that mechanisms should be in place to limit the impact that high-

priced generic drugs have on reimbursement. Medicare’s new reimbursement methodology for 

prescription drugs will not prevent higher-priced generics from increasing Medicare allowances. 

Higher-priced generic drugs will still be included in the median calculation. When the median 

generic policy was implemented, generic prices were normally less than those of the brand-name 

product. However, what may have originally been a cost-saving mechanism has, for certain 

categories of drugs, become a losing proposition. 


We believe that the Medicare program should take action to prevent these situations. We 

recommend that the Health Care Financing Administration        1) not include higher-priced 

generic drugs in the median calculation to determine Medicare allowances, or 2) propose 

limiting Medicare allowances to brand prices when higher-priced generic drugs are 

involved. 


In contrast to the Medicare program which pays for brand and generic drugs at the same rate, 

Medicaid reimburses based on the specific drug supplied. Therefore, we recommend that the 

Health Care Financing Administration      limit Medicaid reimbursement of higher-priced 

generic drugs to the amount reimbursed (prior to rebate) for lower-priced brand or 

appropriately-priced    generic drugs. 


AGENCY     COMMENTS 


The HCFA concurred with our recommendation for the Medicare program. The agency stated 

that they will consider these options in regulations implementing provisions of the Balanced 

Budget Act of 1997. 

Although not addressed in the agency comments, the HCFA did issue a program memorandum in 

January 1998 to Medicare contractors instructing that “if the brand name product AWP is lower 




                                                 9

than the median of the generic AWP, calculate a new median with the brand AWP included.” We
believe this revision of the reimbursement calculation will reduce some of the impact that high-
priced generic drugs have on Medicare payments.

The HCFA did not concur with our recommendation for the Medicaid program. The agency
agreed that high-priced drugs can have an adverse impact on Medicaid reimbursement but
believed that States are in a better position to assure that lower-priced brand-named drugs are
dispensed before higher-priced generics. The HCFA believes that States already have the
authority to institute programs to ensure appropriate payments for prescription drugs. However,
HCFA will forward the information from this report to the States and will continue to encourage
them to use existing mechanisms to prevent higher-priced generics rather than less costly brand
drugs from being dispensed.

We recognize HCFA’s continued efforts to provide guidance to States in implementing cost-
savings mechanisms for prescription drugs. However, the current authorities provided to the
States did not prevent Medicaid from paying more for generic versions of drugs than they did for
the brand-name product. Therefore, we continue to believe that HCFA should limit Medicaid
reimbursement for higher-priced generic drugs.




                                                10 

                APPENDIX                 A
Impact of High-Priced Generic Drugs on Medicare
 Code J3370: Injection, Vancomycin HCL, up to 500 mg
    Florida Medicare Allowable as of l/1/9 7 - $12.91


                        BRAND

         Dms                   NIX           Red Book
         Name                  Code            AWP
   Vancocin            00002-7297-O 1            $8.28
   Vancocin            00002-7297- 10            $8.28
   Vancocin            00002-1444-01             $7.80
   Vancocin            00002- 1444-25            $7.80
                      GENERIC
                    I                    I
   Lycophin         1 00469-2210-30      1      $10.97
                    I                    I
   Vancoled            00205-3 154-88            $5.76
   Vancomycin          00074-6534-01            $12.48
  II Vancomvcin     1 00074-4332-01      1      $34.66 11
  /IVancomvcin         003 64-2472-3 3   I


 Code J1840: Injection, Kanamycin Sulfate, up to 500 mg
     Florida Medicare Allowable as of l/1/97 - $6.69


                        BRAND

         Dws                NDC              Red Book
         Name               Code               AWP
  1~
   Kantrex             00015-3502-20     I
                      GENERIC
   Kanamycin           00686-0064-02
   Sulfate
   Kanamycin           39769-0064-02
   Sulfate



                         A-l
     Code JI 160: Injection, Digoxin, up to 0.5 mg
    Florida Medicare Allowable as of l/l/9 7 - $2.53




           Code J9182: Etoposide, 100 mg
  Florida Medicare Allowable as of 1/l/9 7 - $141.97


                        BRAND

       Dw3                  NDC              Red Book
       Name                 Code               AWP
 Vepesid                00015-3095-20          $136.49
 Vepesid VHA            00015-3095-30          $136.49
 Plus
                        GENERIC
/IEtoposide         I   00186-1571-31    I      $38.75 11




                          A-2 

                        APPENDIX                     B




         Impact of High-Priced Generic Drugs on Medicaid 




r                            Vancomycin, 500 mg           -1
                                        BRAND
        NDC               units           Reimbursement        Reimbursement
        Code           Reimbursed            per Unit           with Rebate
    00002-1444-01            1,953                 $6.68                 $2.70
    00002- 1444-25 
                0               N/A                   N/A
    00002-7297-O 1 
                0               N/A                   N/A
    00002-7297- 10 
           450                 $7.12                 $3.04
                                    GENERIC
    00469-22 1O-30 
           220                 $7.49                 $7.12
    00205-3 154-88 
           918                 $4.62                 $3.46
    00074-4332-o 1 
         2,400                $26.40                $26.07
    00074-6534-o 1 
           551                $10.20 1               $9.81 /I
    00364-2472-33 
            422                 $6.36                 $6.33




                                         B-l
                         Vancomycin, 2 gm


                                     Reimbursement    Reimbursement




00074-653 5-O 1           747                $19.81            $19.05
00205-3 154-15          2,147                 $9.27             $8.11
00364-2473-9 1          1,290                $12.40            $12.38
00469-2840-40           1,293                $13.91            $13.19




                       Pentamidine, 300 mg
                                   BRAND

  NDC Code           Units           Reimbursement    Reimbursement
                  Reimbursed            per Unit       with Rebate      t
00469-0113-10             232                $84.24            $61.68
54868-2568-00                  0               N/A               N/A
57317-0210-06           1.486                $84.03            $62.88

                               GENERIC
00074-4548-o 1            757               $101.90            $96.60
00053-1000-05                  0               N/A               N/A
00209-8560-20                  0               N/A               N/A
11098-05 12-99                 0               N/A               N/A




                                    B-2 

                        Vincristine Sulfate, f ml
                                     BRAND

 NDC Code              Units           Reimbursement    Reimbursement
                    Reimbursed            per Unit       with Rebate
00002-7 194-O 1             208                $29.63             $6.38
00013-7456-86               113                $30.93            $29.96
00002-7198-01                    0               N/A               N/A
00002-7 198-09                   0               N/A               N/A
                                 GENERIC
54868-3 196-00                   0               N/A               N/A
61703-0309-06                51                $31.59            $31.11




                            Etoposide, 5 ml
                                     BRAND

 NDC Code              U&S             Reimbursement    Reimbursement
                    Reimbursed            per Unit       with Rebate
00015-3095-20             1,167                $23.36             $7.09 ~
00015-3095-30                    0               N/A               N/A
                                 GENERIC
53905-0291-01                    0               N/A               N/A
00013-7336-91             1,320                $23.37            $22.09
00186-1571-3    1                0               N/A               N/A
00364-3028-53                    0               N/A               N/A
00703-5643-01               793                $22.50            $22.05
00703-5653-01                    0               N/A               N/A
55390-0291-01                    0               N/A               N/A
58406-0711-12                    0               N/A               N/A




                                      B-3 

                                           BRAND

   NDC Code                  Units           Reimbursement    Reimbursement
                          Reimbursed            per Unit       with Rebate
II000 15-3020-20      I
                                       GENERIC
 00074-1956-01                     47                $45.94            $45.18

 00074-1958-01                     90                $51.60            $50.76
 00641-0123-23                  4,102                $27.27            $24.53
 00703-9032-03                  2,474                $27.82            $27.60
 00024-0016-l     1                    0               N/A               N/A
 00186-1703-13                         0               N/A               N/A
 39769-023 7-02                        7             $30.82            $30.81
 553 90-0226-02                   189                $18.71            $18.28
 61703-0201-07                    298                $15.78            $15.33
 6 1703-0202-07                   176                $24.20            $23.66




                                            B-4
                 Clindamycin Phosphate, 4 ml
                              BRAND

 NDC Code          units        Reimbursement    Reimbursement
                Reimbursed         per Unit       with Rebate
00009-0775-26           336              $2.93             $2.47




                               B-5
           APPENDIX            C





Health Care Financing Administration Comments 





                     C-l
   DEPARTMENT    OF HEALTH & HUMAN    SERVICES                  Health Care Financing Administration


                                                                The Administrator
                                                                Washington, D.C.    20201
DATE:         MAY 8 1998
TO: 	       JuneGibbsBrown
            Inspector--l
FROM? 	     Nancy-AnnMin DeParfc
            Administrator

SUBJECT: 	 O&e of kpector General(OIG) D&I Repark“The impactof High
                             on MedicareandMedicai&” (OEI43-97-00510)
           PricedGeneri~~Drugs

We reviewedtheabove-refkrenced
                             draftreporton theimpactof high-pricedgem&cdrugs
on MedicareandMedicaid

Both MedicaidandMedicarepay billions of dollarseachyearfof prescriptiondrugs. The
Medicaidprogmmpaidnearly$10billion for prescziptiondrugsin 1995. Although
Medicareprovidesreimbmsementfor only certaintypesof drugs,thePartB programstill
paidmorethan$2.3billion dollarsfor prescriptiondrugsin 1996.

Prior to January1,1998,Medicarecarriersdeterminedthe amountsthatMedicarewould
pay for prescriptiondrugsbasedon eitherthelower of the EstimatedAcquisitionCost
@AC) or thenationalAverageWholesalePrice(AWP). Historically, theyusedAWP to
detemineMedicarereimbursementFor drugswith genexicversions,thecarriers
determinedreimbursementbasedon themedianof all AWPsfor thegenericdrugs. Due
to legislationrecentlyenactedby Congress,MedicarePartB wiiI beginto reimburse
covereddrugsat 95 percentof the averagewholesalepriceon January1,1998.

T’hiskupectionreportresultedfrom a Congressionalrequestconcerninghigh-priced
gene& dIugs. our detailedcDmmentsareasfollows:

OIG Recommendation 1 

TheHedfh CareFinanciq Admit&&on shouldnot inch& higher-pricedgenericdrugs 

in~rnediancalculationtodefcrmineM~~allowancgorproposelimitedMedicare 

auowancesto brandpriceswhenbigher-pricedgenericdrugsareinvolved~ 



We concurwith the draft report’s recommendations
                                               for Medicare,andwill considerthis
proposalin regulationsimpkmentingprovisionsof theBalancedBudgetAct of 1997.




                                        c-2
 OIG Recommendation 2 

 TheHealthCareFinancingAdministrationshouldlimit Medicaidreimbursement
     of
 higher-pricedgenericthugsto the amountreimbursed(prior to rebate)for lower-priced
 brandor appqr&@-priced gene& drugs.

  ECFA Response 

  We &-not concur. We areawarethathigh-priceddrugshavea sigaificantfinancial 

  impacton Medicaidreimbursement
 butbelieveStatesarein a betterpositionto assure
. thatlow& pricedbrand-namedrugsa& d@xnsedbeforehigherpricedgentics. States
  cumadyhavtarrtharitytoinstit~prognmrstanquirttheuseoflowcrpricadbrandor
  appm~pricedgeneriq~dmgs.        Inadditi~alreadyeJtistiogrcgolatoryauthoaity
  ~~rtqrrircsS~tolookatthtestimatedacqaisitionco~of~drugstoassure
 reimburscmcntlenlsrcntctthc~costtothepharmacyforpurchasingthestdrugs
 ratherthanwhatmaybeanover&&edpublishcdpricc.
HCFA conhues to encourage ad provide guidatrcc to states to assistin Cost-savjngs
       .
me&mums Infiathcrancc0fthattffort,wcwillforwardinformation~the~
OIGrepolttb~estetesina~ase,snchasastateMdicaidDirectorsletta,and
encouragestattstouseerdstingmcchanisns~availabletodocmtoprevent~~­
pricedgeneticsfirm beingti@msed overlesscostlybrandnamedrugs. Webelievethis
addressestheproblemwith a minimalamountof Federalinterventioninto existingState
opemtionsiIlthisarea

Furthermore,HCFA is undertak& a morecomprehensive
                                                reviewof drugpricesandhow
theyaflkct theMedicaidprogram andwill issue* guidanceto thestateson this as
apprOpriate.




                                         c-3
